No.

20-6062
IN THE

SUPREME COURT OF THE UNITED STATES

MONTGOMERY CARL AKERS

— PETITIONER

(Your Name)
vs.

UNITED STATES OF AMERICA

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS, FOR THE TENTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

MONTGOMERY CARL AKERS
(Your Name)
#02866-081, P.0. BOX 1000
(Address)
MARION, IL

62959

(City, State, Zip Code)

(Phone Number)

RECEIVED
OCT 1 6 2020

gaig<as»sg
:

QUESTION(S) PRESENTED
THE APPELLATE COURT MUST FIRST CONSIDER WHETHER THE DISTRICT COURT
HAS SUBJECT-MATTER JURISDICTION; and,
SUBJECT-MATTER JURISDICTION MAY BE RAISED AT ANY TIME; and,
OBJECTIONS TO SUBJECT-MATTER JURISDICTION ARE THE CHIEF COMPONENT
OF THE SUPREME COURT IN DETERMINING THE SUBJECT-MATTER JURISDICTION
OF THE APPELLATE AND DISTRICT COURTS;
THE PETITIONER HAS A RIGHT TO HIRE COUNSEL AT HIS OWN EXPENSE ON
POST-CONVICTION PROCEEDINGS OR AT ANY TIME IN THE CRIMINAL PROCESS.

je

1

LIST OF PARTIES

J>4 All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
frQ For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
£/] reported at
, Kb/
; or,

to

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix ^
the petition and is
&0 reported at 2019 U.S. DIST. LEXIS 19M828
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Arbaugh v. Y&H Corporation, 5fi6 500-5lH-(2006)
United States v. griffin, 928 F,3d 855,865(10th Cir. 2019)
Plaza Speedway, Inc. v. United States, 311 F.3d 1262, 1266(10th Cir. 2002)
Henderson ex Rel. Henderson v. Shinseki, 562 U.S. H28, H3fl(2011)
United States v. Cotton, 535 U.S. 625, 630(2002)
Niemi v. Lasshofer, 770 F.3d 1331, 133H(10th Cir. 20lH)
Class v. United States, 583 US
138 S.Ct.
,200 L Ed 2d 37, 2018 LEXIS
1378
Steel Company v. Citizens For A Better Environment, 523 U.S. 83(1997)
Coronoado v. Ward, 517 F.3d 1212, 1218(10thCir. 2008)
Powell v. Alabama, 287 U.S. H5, 53(1932)
United States v. Read-Forbes, 2016 U.S. DIST LEXIS H9861
United States v. Cunningham, 672 F.2d 106H, 1070 (2nd Cir. 1982)

STATUTES AND RULES
18 U.S.C. S 3231
Fed.Rul.Civ.P. 60(B) (fl)
Fed.Rul.Civ.P. 12(h)(3)

OTHER

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX

a-'0PINI0N-0E

THE'TjNITED STATEs'cOURT OF 'APPEALS
£ .FOR' THE, ITENTH^CmdilLT/G AS E-NOi—1-9 J 32 511J ~

a

LE
X
APPENDIX B OPINION OF“THE~UNITED
CASE NO.

STATES DISTRICT COURT

0{|-20089-KHV-1

APPENDIX C LETTER FROM THE OFFICE OF THE CLERK/SUPREME COURT OF THE
UNITED STATES DATED: AUGUST 27, 2020
APPENDIX D DENIAL OF PETITION FOR REHEARING/REHEARING EN BANC.
APPENDIX E
APPENDIX F

JURISDICTION
[X] For eases from federal courts:
The date on which the United States Court of Appeals decided my case
was April 03, 2020
[ ] No petition for rehearing was timely filed in my case.
£X] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: April 20, 2020
, and a copy of the
order denying rehearing appears at Appendix D
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The United States Court of Appeals is vested with the constitutional auth­
ority to determine both the subject-matter jurisdiction of the appellate
court but also that of the district court. See Fed.R.Civ.P. 12(h)(3)("if
the Court determines at any time that it lacks subject-matter jurisdiction,
the court must dismiss the action.").
The Supreme Court must ensure the subject-matter matter jurisdiction of the
lower courts'including the appellate and district courts.
The Petitioner has a constitutional right to hire counsel at any stage of
the proceedings of a criminal case; which includes post-conviction appeals
or redress otherwise.

STATEMENT OF THE CASE
The Petitioner challenged ^j the judgment in his initial 28 U.S.C. S.2255
motion in September, 2009, was void as the court lacked subject-matter jur­
isdiction to enter any orders, accept his guilty plea, or sentence him in
any fashion as the court was notified at his "change of plea" hearing in
2005 that it was factually impossible for the charges to be brought against
the petitioner of wire fraud. The court was put on notice that the Petitioner
was not domiciled in the State and District of Kansas as alleged in the in­
dictment and superseding indictment. The Court was put on notice at the time
that it did not have subject-matter jurisdiction over the Petitioner as no
crime was committed by the Petitioner in the District of Kansas as specified
in the superseding indictment. The Superseding indictment charged that at
all times MATERIALLY RELEVANT to the facts of the indictment the Petitioner
was an inmate confined at the United States Penitentiary, Leavenworth, Kansas.
The indictment further charged that a financial institution in Kansas was
aggrieved by the Petitioner begining in February, 2000. At the change-of. plea hearing on September 21, 2005, the Petitioner informed the United States
District Judge presiding, Kathryn H. Vratil, that he was not present in the
District of Kansas as alleged in the superseding indictment. This was done
in open court with the prosecutor,Kim M.-. Berger, present. Nonetheless, Judge
Vratil continued with the hearing without addressing her subject-matter.
In 2009 Judge-Vratil ruled that she did have subject-matter jurisdiction based
upon the use of inaccurate information in doing so. Judge-Vratil Mischaracterized the record claiming that Petitioner had admitted. . .in open court. . .
that he made a phone call in interstate commerce. This finding was blatantly
false and belied by the record of the case which included a manifest of ex­
actly where the plaintiff was housed within the Federal Bureau of Prisons in
Oxford, Wisconsin, at the time that the superseding indictment charges that
the Petition was located in Leavenworth, Kansas(date/time). The Petitioner
has made a plethora of motions to both the district court and the appellate
court in the Tenth Circuit concerning the subject-matter defects in this
case for years. Each time these courts find a way to dismiss his action
based on some procedural mechanism and the use of what's known as a "plea
waiver" in this case.
In 2019 the Petitioner filed his Motion pursuant to Fed.R.Civ.P. 60(B)(H)
based upon newly discovered evidence that the financial institutions in
question that were/are alleged in the superseding indictment of this case
do not exist. The original S.2255 hearing is a civil matter, therefore
the Federal Rules of Civil Procedure are applicable. On April 03, 2020 the
panel hearing this matter in the Tenth Circuit affirmed the district court
based upon inaccurate information and without entertaining the subject-matter
of the Appjllate Court as well as the district court. The Appellate court
also found that the Appellant(Petitioner)was not entitled to retain counsel
for his assistance on appeal of this case. In so doing the Appellate court
erred in finding and using case law inapplicable to the issues on appeal*,
but what's more did not satisfy the jurisdictional requirements of finding
subject-matter jurisdiction of the appellateJ and district court. The App­
ellate court affirmed the imposition^ot sanctions in the amount of $77,000
when the district court did not have jurisdiction to impose sanctions in the
first place. The district court as well as the appellate court used Tenth
Circuit case law that is inapplicable to denying the Petitioner access to
representation during his post-conviction process. . .and. . .most importantly
: . .representation by licensed counsel based upon lack of subject-matter
jurisdiction.

No.
IN THE
SUPREME COURT OF THE UNITED STATES
MONTGOMERY CARL AKERS,

Petitioner

v.
UNITED STATES OF AMERICA,

Respondent

On Petition For Writ of Certiorari
From the United States Court of \Appeals for the Tenth Circuit
CASE NO. 19-325l|
V
j
;

'

1

■

\

...»

PETITION FOR WRIT OF CERTIORARI

MONTGOMERY CARL AKERS
ADDRESS: #02866-081, P.0. BOX 1000
MARION, IL 62959
REASONS FOR GRANTING THE PETITION FOR CERTIORARI
On June 17, 2020, the U.S. Court of Appeals for the Tenth Circuit denied
my motion for rehearing. Since that time I have sent two motions to this
court for extension of time. Staff of the Federal Bureau of Prisons by
the name of: KATHY HILL, KATHERINE SIEREVELD, have failed to mail my motions
to the Court. I have asked for a "prisoner petition packet" to properly file
my petition for certirari in this Court. Kathy Hill handles my mail here at
the prison which as United states Penitentiary, Marion, Illinois. Hilltakes
her orders from Siereveld who instructs her not to send my mail in situations
like this. Siereveld is taking directv«w$from the prosecutor on my case, Kim
I. Flannigan, av'assistant united states attorney in Kansas.
The Tenth Circuit never had subject-matter jurisdiction to hear my casev
The district court in Kansas was also without subject-matter jurisdiction
to entertain this case. In September, 2005, during my plea colloquy with
the judge Katherine H. Vratil I told judge-Vratil that I was not in Kansas
in February, 2000, as the indictment charged. Instead of handling the jur­
isdictional defect in this case judge-Vratil moved forward as if I never
said anything. The Tenth Circuit Court of Appeals judges who have heard my
many cases have never assessed their subject-matter jurisdiction in this----

wav-

I RECEIVED
AUG 2 6 2020
RnplREMEFCTOURTLUfS<

REASONS FOR GRANTING THE PETITION
The Supreme Court of the United States is charged with finding its own jur­
isdiction and that of the lower courts. See Steel Company v. Citizens For A
Better Enviroment, 523 U.S. 83(1997)(holding: without jurisdiction, a court
cannot proceed at all in any cause, as jurisdiction is the power to declare
the law; when jurisdiction ceases to exist, the only function remaining to
the court is that of announcing the fact and dismiss the cause).
Subject-matter jurisdiction may be raised at any time. See Henderson ex rel.
Henderson v. Shinseki, 562 U.S. ^28, 4l3f|(2011); See also Fed.R. Civ.P. 12(h)
(3)(Mif the court determines at any time that it lacks subject-matter jur­
isdiction, the court must dismiss the case/action.")
Likewise, the appellate court must first consider whether the district court
has jurisdiction. The existenceof subject-matter jurisdiction "is a question
of law which the circuit court reviews de novo." Plaza Speedway Inc.v. United
States, 311 F.3d 1262, 1266(10th Cir. 2002). The challenge to subject-matter
jurisdiction is de novo. See Niemi v. Lasshofer, 770 F.3d 1331, 133fi(10th Cir.
201W). The district court always has jurisdiction to entertain its own jur­
isdiction. See United States v. Griffin, 928 F.3d 855, 865(10th Cir. 2019).
18 U.S.C. S.3231 states that federal courts have original jurisdiction over
the laws of the United States. In this case no laws were broken by the Petitioner of the United States in Kansas or anywhere.
The bottom line is that the Petitioner raised his subject-matter jurisdictional
claims based upon the fact that fraud and inaccurate information were used to
determine his original S.2255 motion coupled with the fact that the court used
said information to manufacture jurisdiction of the Court. Once again the
Petitoner raised his subject-matter jurisdiction claims that the district
court and appellate court should have entertained independently. No amount
of waivers or otherwise can/should prevent the district court and appellate
court from entertaining its subject-matter jurisdiction. In this case'then
appellant/petitioner pointed to the record and provided irrefutable evidence
that Judge-Vratil had lied and manufactured jurisdiction in deciding his in- :
itial S.2255 motion. Once the Petitioner raised the issue of subject-matter
jurisdiction the court(s) were obligated to inquire into the evidence that
was presented by the Petitioner to determine the jurisdiction of the courts.
Such an action by the district court and the appellate court amounts to
hqt having any hearing on the court's subject-matter which the courts know to
be deficient.
The Supreme Court must grant certiorari in order to decide the subject-matter
of the Appellate court and the district court in the first instance. Second
it must decide if the Petitioner is guaranteed by the constitution the ability
to retain counsel, at his own expense, for his post-conviction matters and
appeals. The Petitioner has been denied representation by licensed legal
csmnsrel in order to railroad him through the collateral attack proceedings as
?well as the post-conviction process afterward. The case law that has been
relied upon by the district court and appellate court is found in Coronado v.
Ward, 517 F.3d 1212, 1218(10th Cir. 2008). The Ward case says absolutely
nothing about the fact that the Petitioner is not entitled to retain counsel
at his own expense and retain licensed legal counsel for representation on
post-conviction appeals. The Ward case only states that an appellate is_ not
entitled to counsel at government expense in the post-conviction process.
,-Thexappellate court mischaracterized the language of this case to ensure that
cover-up
'tfie Petitioner would not be represented by counsel fo furtheris the
case.
subject-matter
jurisdiction
of
thi
with regard to the lack of

The Petitioner has been the victim of governmental misconduct since day-1
of this case. Every court to have heard the appeals of the Plaintiff has
side-stepped the fact that subject-matter jurisdiction is lacking in this
case. In September, 2009,
ZZZZ, the district court manufactured subject-matter
jurisdiction with inaccurate information as the basis for is holdings and
findings. The record on-its-face corroborates the fact that Plaintiff WAS
NOT in the District of Kansas in February, 2000, as the superseding indlctfment of this case charges. The Petitioner put the Court on notice of this
fact during the plea colloquy with Judge-Vratil on September 21, 2005.
None of the panels hearing the appeals of the Petitioner have read hi£ (61)
page 'change of plea"transcript at anytime. This was done to turn a blind
eye to the lack of jurisdiction in this matter and to forward the wrongful
conviction, sentence, and imprisonment of the Petitioner.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

